                                                   NATIONAL SCIENCE FOLTNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT NIEMORANDUM

 Case Number: A-04120075
                                                                                   11          Page 1 of 1



          Our office received an allegation1that the subject: the PI on NSF declined proposals3attempted
          to receive duplicate funding to do the same work he had been funded to do under an NSF award.4
          The subject had submitted identical proposals, one each year for 2 consecutive years after
          receiving the NSF award. Further, it was alleged that a statement in each of the subject's
          declined pioposals was misleading about the subject's existing laboratory facilities.

          A review of the subject's award and his two proposals revealed that the alleged overlap in work
          presented in the award was actually an extension of the previous work and some repeated tests
          regarding the findings in the earlier award. The proposals contained significant new material and
          goals that clearly separated them from the award.

          Our review of the alleged misleading statement made in the proposals about the subject's laboratory
          facilities showed that in each case the statement cited the same original source of the technique. We
          also noted that in the earlier declined proposal's Facilities and Equipment section, the subject
          discussed the new laboratory facilities recently completed at the institution, which include the
          equipment necessary to do the work at the institution.

          This case is closed and no further action will be taken.




NSF OIG Form 2 (1 1/02)
